Department of Health and Human Services
                   OFFICE OF
              INSPECTOR GENERAL




MEDICAL SERVICES OF AMERICA DID
  NOT ALWAYS HAVE REQUIRED
  DOCUMENTATION ON FILE TO
 SUPPORT ITS MEDICARE CLAIMS
  Inquiries about this report may be addressed to the Office of Public Affairs at
                           Public.Affairs@oig.hhs.gov.




                                                    Lori S. Pilcher
                                               Regional Inspector General

                                                      December 2012
                                                      A-04-11-04010
                        Office of Inspector General
                                         https://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at https://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                  EXECUTIVE SUMMARY

BACKGROUND

The Medicare program, established by Title XVIII of the Social Security Act (the Act) in 1965
provides health insurance coverage to people aged 65 and over, people with disabilities, and
people with end-stage renal disease. The Centers for Medicare & Medicaid Services (CMS)
administers the Medicare program. Pursuant to sections 1832(a)(1) and 1861(n) of the Act,
Medicare Part B provides for the coverage of durable medical equipment, prosthetics, orthotics,
and supplies (DMEPOS). CMS contracted with four durable medical equipment Medicare
administrative contractors (contractors) to process and pay Medicare Part B claims for
DMEPOS.

The Medicare National Coverage Determinations Manual defines durable medical equipment as
equipment that can withstand repeated use, serves a medical purpose, is generally not useful to a
person in the absence of illness or injury, and is appropriate for use in a patient’s home. For
certain DMEPOS, suppliers must use the KX modifier on filed claims. The KX modifier
indicates that the requirements specified in the medical policy have been met and the supplier
has the required documentation on file. While suppliers must have a written physician’s order
and proof of delivery for all DMEPOS, suppliers must have additional documentation on file for
items requiring the KX modifier. For example, therapeutic shoes also require a certifying
physician’s statement be on file before billing Medicare.

Medical Services of America (MSA), incorporated in 1973, is a healthcare provider
headquartered in Lexington, South Carolina that provides a variety of medical services including
respiratory management and equipment, cardio diagnostics, physician management, home health,
pharmacy, mail-order diabetic supplies, and hospice care. MSA has more than 200 locations
across 14 states and received $4.7 million in payments for Medicare claims with dates of service
between July 1, 2009 and June 30, 2010 for certain DMEPOS categories. Of the $4.7 million,
$452,950 was paid to MSA for its DMEPOS supplier doing business as Medi Home Care in
Columbia, South Carolina. This audit focused on the $452,950.

OBJECTIVE

Our objective was to determine whether MSA had specific required documentation on file for
Medicare DMEPOS claims that it filed using the KX modifier.

SUMMARY OF FINDINGS

MSA did not always have the specific required documentation on file to support the use of the
KX modifier before submitting DMEPOS claims to Medicare. MSA had the required
documentation on file for 38 of the 100 sample claims; however, it did not have required
documentation on file for the remaining 62 claims. Based on our sample results, we estimated
that Medicare paid MSA $178,601 for unallowable claims that did not have the required
documentation on file.




                                                i
The table below lists the types of documentation that were missing or incomplete.

                    Claims With Missing or Incomplete Documentation

                      TYPE OF MISSING OR INCOMPLETE
                             DOCUMENTATION                    NUMBER
                                                             OF CLAIMS
                      physician’s order                          45
                      compliant use followup statement           29
                      face-to-face evaluation                    8
                      sleep test                                 3
                      proof of delivery                          3

MSA was missing multiple required documents for 26 of the 62 unallowable claims. Additional
details on the results of the sample are provided at Appendix C.

MSA’s policies and procedures effective March 16, 2009, were not adequate to ensure that the
required documentation was on file prior to billing Medicare for DMEPOS claims. MSA’s
Quality Assurance (QA) processes (revised February 2010) were more robust in this regard;
however, MSA’s QA processes were still incomplete because, although they applied to new
equipment setups and routine monthly deliveries, they did not address monthly rentals or
replacement supplies.

Additionally, MSA’s billing software is programmed to automatically attach the KX modifier to
claims that require the modifier for payment. MSA’s corporate policy placed greater emphasis
on the attachment of the modifier than on the assurance that the required documentation was on
file.

RECOMMENDATIONS

We recommend that MSA:

   •   refund $178,601 to the Federal Government;

   •   review its claims subsequent to our audit period to determine whether it had specific
       required documentation on file for Medicare DMEPOS claims that it filed using the KX
       modifier and return any identified overpayments;

   •   follow its established quality assurance processes to ensure that the required documents
       are present prior to billing for new equipment setups;

   •   develop and implement a quality assurance process for monthly rental billing and
       replacement supplies that complies with Federal requirements; and

   •   remove the automatic assignment of the KX modifier from the billing software and apply
       the KX modifier to claims only after all of the required documentation is on file.




                                                  ii
MEDICAL SERVICES OF AMERICA COMMENTS

MSA did not concur with the amount recommended for refund to the Federal Government and
provided additional documentation with its comments. MSA concurred with our remaining
recommendations. MSA’s comments are included as Appendix F; however, we did not include
the additional documentation that MSA provided because it was too voluminous and included
personally identifiable information.

OFFICE OF INSPECTOR GENERAL RESPONSE

We reviewed the additional documentation that MSA provided with its comments. We
determined that the additional documentation adequately supported 3 of the 65 claims that we
previously determined to be unallowable. We updated the numbers accordingly throughout the
report. The documentation that MSA provided for the remaining 62 claims did not adequately
support the claims. MSA had previously provided us with most of the additional documentation,
and both the Medicare administrative contractor and we had already reviewed it and determined
the claims to be unallowable.




                                             iii
                                                  TABLE OF CONTENTS
                                                                                                                                       Page

INTRODUCTION....................................................................................................................... 1

          BACKGROUND .............................................................................................................. 1
              KX Modifier.......................................................................................................... 1
              Medical Services of America ................................................................................ 2

          OBJECTIVE, SCOPE, AND METHODOLOGY ............................................................ 2
               Objective ............................................................................................................... 2
               Scope ..................................................................................................................... 2
               Methodology ......................................................................................................... 2

FINDINGS AND RECOMMENDATIONS ............................................................................. 3

          MISSING OR INCOMPLETE REQUIRED DOCUMENTATION ................................ 4
               Physician’s Order .................................................................................................. 4
               Compliant Use Followup ...................................................................................... 4
               Face-to-Face Evaluation ....................................................................................... 5
               Sleep Test .............................................................................................................. 5
               Proof of Delivery .................................................................................................. 5

          INADEQUATE CONTROLS .......................................................................................... 5

          RECOMMENDATIONS .................................................................................................. 6

          MEDICAL SERVICES OF AMERICA COMMENTS ................................................... 6

          OFFICE OF INSPECTOR GENERAL RESPONSE ....................................................... 7


APPENDIXES

          A: DOCUMENTATION REQUIREMENTS

          B: COMPLIANT USE FOLLOWUP DOCUMENTATION REQUIREMENTS

          C: ERROR DETAILS

          D: SAMPLING METHODOLOGY

          E: SAMPLE RESULTS AND ESTIMATES

          F: MEDICAL SERVICES OF AMERICA COMMENTS




                                                                     iv
                                               INTRODUCTION


BACKGROUND

The Medicare program, established by Title XVIII of the Social Security Act (the Act) in 1965
provides health insurance coverage to people aged 65 and over, people with disabilities, and
people with end-stage renal disease. The Centers for Medicare & Medicaid Services (CMS)
administers the Medicare program. Pursuant to sections 1832(a)(1) and 1861(n) of the Act,
Medicare Part B provides for the coverage of durable medical equipment, prosthetics, orthotics,
and supplies (DMEPOS).

KX Modifier

National Coverage Determinations (NCD) describe the circumstances for Medicare coverage
nationwide for specific medical service procedures or devices, including DMEPOS, and
generally outline the conditions under which a service or device is considered covered. The
Medicare National Coverage Determinations Manual (Pub. No. 100-03, chapter 1, section
280.1) defines durable medical equipment as equipment that can withstand repeated use, serves a
medical purpose, is generally not useful to a person in the absence of illness or injury, and is
appropriate for use in a patient’s home.

CMS contracted with four durable medical equipment Medicare administrative contractors
(contractors) to process and pay Medicare Part B claims for DMEPOS. The contractors
developed Local Coverage Determinations (LCD) and Policy Articles (PA) for some covered
DMEPOS items. LCDs and PAs specify under what clinical circumstances the DMEPOS item is
considered to be reasonable and necessary. For covered DMEPOS items, 1 the LCDs require the
addition of a KX modifier to submitted claims before Medicare will pay them. By adding the
KX modifier, the supplier is attesting that it meets certain requirements in the medical policies
and that it has on file the specific required documentation, which varies based on the DMEPOS
item, before submitting the claim to the contractors. This documentation requirement includes
the written physician’s order and proof of delivery that are required for all DMEPOS, in addition
to specific documentation required for certain DMEPOS, such as a certifying physician’s
statement for a therapeutic shoe claim.

Through the LCDs, the contractors instructed suppliers to use the KX modifier only if the
suppliers had the required documentation on file. However, if suppliers did not use the KX
modifier on claims for DMEPOS on which it was required, the claims would be denied. See
Appendix A for a table detailing the documentation required by Medicare for each of the four
DMEPOS categories in our review.

1
 Covered DMEPOS items for this audit include therapeutic shoes for persons with diabetes (therapeutic shoes),
positive airway pressure devices (PAP), respiratory assist devices (RAD), and pressure reducing support surfaces
(groups 1 and 2) (PRSS). These DMEPOS are included in the Level II Healthcare Common Procedure Coding
System (HCPCS), which is a comprehensive, standardized system that classifies similar medical products into
categories for efficient claims processing. It is the standardized coding system used for describing, identifying, and
preparing claims for DMEPOS.

                                                          1
Medical Services of America

Medical Services of America (MSA), incorporated in 1973, is a healthcare provider
headquartered in Lexington, South Carolina, that provides a variety of medical services including
respiratory management and equipment, cardio diagnostics, physician management, home health,
pharmacy, mail-order diabetic supplies, and hospice care. MSA has more than 200 locations
across 14 States.

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether MSA had specific required documentation on file for
Medicare DMEPOS claims that it filed using the KX modifier.

Scope

Medicare paid approximately $4.7 million to MSA for claims for therapeutic shoes, PAPs,
RADs, and PRSS using the KX modifier for dates of service between July 1, 2009, and June 30,
2010. Of the $4.7 million, Medicare paid $452,950 to MSA for its DMEPOS supplier doing
business as Medi Home Care in Columbia, South Carolina. This audit focused on the $452,950.

We limited our review of internal controls to gaining an understanding of MSA’s processing of
selected DMEPOS claims that were submitted to Medicare for payment using the KX modifier
for our dates of service.

We conducted fieldwork at the MSA corporate office in Lexington, South Carolina, the MSA
office in Columbia, South Carolina, where it does business as Medi Home Care, and the CIGNA
Government Services office in Nashville, Tennessee.

Methodology

To accomplish our objective, we:

   •    reviewed applicable Federal laws, regulations, and guidance, as well as MSA policies and
        procedures;

   •    interviewed MSA officials concerning the education and training, specific to the KX
        modifier, provided to its employees who handled Medicare beneficiary orders for
        therapeutic shoes, PAPs, RADs, and PRSS;

   •    selected a random sample of 100 claims totaling $11,503 from 4 categories of DMEPOS
        (Appendix D);

   •    reviewed documentation for the sample claims to determine whether they met the
        documentation requirements for using the KX modifier;

                                               2
      •    discussed the sample claims that were missing documentation with MSA officials; and

      •    requested the contractor’s medical staff review all documentation provided by MSA for
           sampled claims that we determined did not meet the requirements for use of the KX
           modifier.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective.

                                FINDINGS AND RECOMMENDATIONS

MSA did not always have the specific required documentation on file to support the use of the
KX modifier before submitting DMEPOS claims to Medicare. MSA had the required
documentation on file for 38 of the 100 sample claims; however, it did not have required
documentation on file for the remaining 62 claims. Based on our sample results, we estimated
that Medicare paid MSA $178,601 for unallowable claims that did not have the required
documentation on file.

The table below lists the types of documentation that were missing or incomplete.

                           Claims With Missing or Incomplete Documentation

                             TYPE OF MISSING OR INCOMPLETE
                                    DOCUMENTATION                          NUMBER
                                                                          OF CLAIMS
                             physician’s order                                45
                             compliant use 2 followup statement               29
                             face-to-face evaluation                          8
                             sleep test                                       3
                             proof of delivery                                3

MSA was missing multiple required documents for 26 of the 62 unallowable claims. Additional
details on the results of the sample are provided at Appendix C.

MSA’s policies and procedures effective March 16, 2009, were not adequate to ensure that the
required documentation was on file prior to billing Medicare for DMEPOS claims. MSA’s
Quality Assurance (QA) processes (revised February 2010) were more robust in this regard;
however, MSA’s QA processes were still incomplete because, although they applied to new
equipment setups and routine monthly deliveries, they did not address monthly rentals or
replacement supplies.



2
    “Compliant use” means that the patient is using the DMEPOS item in accordance with the applicable policy.

                                                          3
Additionally, MSA’s billing software is programmed to automatically attach the KX modifier to
claims that require the modifier for payment. MSA’s corporate policy placed greater emphasis
on the attachment of the modifier than on the assurance that the required documentation was on
file.

MISSING OR INCOMPLETE REQUIRED DOCUMENTATION

Physician’s Order

The Program Integrity Manual (PIM) (chapter 5, sections 5.2.1 and 5.2.2) states that all
DMEPOS suppliers are required to keep a physician’s order on file. Medicare will deny a
DMEPOS claim for which a supplier does not have a written order signed and dated by the
treating physician (section 5.2.3).

For 45 of the 100 sampled claims, MSA did not have a complete physician’s order on file to
support billing for the DMEPOS. In all 45 instances, at least one of the following deficiencies
occurred: the order was missing, the order was not signed or dated by the physician, the order
was dated after delivery for PRSS items, the DMEPOS item was not listed on the order, the
DMEPOS item did not contain a quantity or frequency, or the verbal order was not followed by a
written order.

Compliant Use Followup

The LCDs for Continuous Positive Airway Pressure Systems (CPAPs), 3 PAPs, and RADs
include specific compliant use followup criteria. These criteria vary based on type of equipment
and initial date of service, but all require documentation to verify that the patient is compliantly
using the equipment and is benefitting from its use. (See Appendix B for compliant use
followup documentation requirements.)

For 29 of the 100 sampled claims, MSA did not have the compliant use followup documentation
on file to support billing for the DMEPOS items. Of the 29 claims, 25 related to PAPs. In all 25
instances, at least one of the following deficiencies occurred: the 30-day download was missing
or not timely, the compliant use followup documentation was missing, was incomplete, or was
not timely.

The remaining 4 claims related to RADs. In all 4 instances, at least one of the following
deficiencies occurred: the statement(s) required to be completed by the physician or the
beneficiary was missing or the statement indicated noncompliance. (See Appendix C.)




3
 Effective March 13, 2008, LCD titles began using the term “PAP” in place of CPAP to reflect the addition of
coverage for RADs.


                                                        4
Face-to-Face Evaluation

The LCDs for PAPs 4 (E0470 or E0601), effective January 1, 2009, September 1, 2009, January
1, 2010, and April 1, 2010, require the beneficiary to have a face-to-face clinical evaluation
performed by the treating physician prior to the sleep test to assess the beneficiary for obstructive
sleep apnea.

For 8 of the 100 sampled claims, MSA did not have documentation of a face-to-face evaluation
on file to support billing for the DMEPOS claims. (See Appendix C.)

Sleep Test

The LCDs for the CPAP, effective January 1, 2008, for PAPs (E0601 5 or E0470), effective
March 13, 2008, January 1, 2009, September 1, 2009, January 1, 2010, and April 1, 2010, and
for RADs (E0470 or E0471), effective March 13, 2008, September 1, 2009, and February 1,
2010, require that the beneficiary have a Medicare-covered sleep test. Additionally, the sleep
test must not be performed by a DMEPOS supplier.

For 3 of the 100 sampled claims, MSA did not have documentation of a sleep test on file to
support billing for the DMEPOS claims. In all 3 instances, at least one of the following
deficiencies occurred: sleep test documentation was missing, incomplete, or not timely. (See
Appendix C.)

Proof of Delivery

Pursuant to the supplier standard (42 CFR § 424.57(c)(12)), the supplier “[m]ust be responsible
for the delivery of Medicare covered items to beneficiaries and maintain proof of delivery.”
Also, the PIM (chapter 4, section 4.26) requires suppliers to maintain proof of delivery
documentation in their files for 7 years and states that, for “any services, which do not have
proof of delivery from the supplier, such claimed items and services shall be denied and
overpayments recovered.” Section 4.26.1 outlines proof of delivery requirements for different
methods of delivery.

For 3 of the 100 sampled claims, MSA did not have proof of delivery documentation on file to
support billing for the DMEPOS. (See Appendix C.)

INADEQUATE INTERNAL CONTROLS

The policies and procedures in place at MSA as of March 16, 2009, were not adequate to ensure
that the required documentation was on file prior to billing Medicare for DMEPOS claims.
MSA’s Quality Assurance (QA) processes (revised February 2010) were more robust in this
regard; however, MSA’s QA processes were still incomplete because, although they applied to

4
    The LCDs for RADs do not include a requirement of an initial face-to-face evaluation.
5
  E0601, E0470, and E0471 are codes from the HCPCS. An E0601 is a CPAP, E0470 is a RAD without backup rate
feature, and E0471 is a RAD with backup rate feature.

                                                           5
new equipment setups and routine monthly deliveries, they did not address monthly rentals or
replacement supplies.

Additionally, MSA’s billing software is programmed to automatically attach the KX modifier to
claims that require the modifier for payment. MSA’s corporate policy placed greater emphasis
on the attachment of the modifier than on the assurance that the required documentation was on
file. For example, if an MSA staff member noticed an item was missing a required KX modifier
during the order entry process, the policy instructed the staff member to immediately alert
MSA’s MedAmerica division 6 to add the KX modifier to that item in its special price file. The
MedAmerica division maintains the special price file, which contains pricing information that is
used for billing.

Based on our sample results, we estimated that MSA was paid $189,459 for unallowable
Medicare claims that were not supported by the required documentation.

RECOMMENDATIONS

We recommend that MSA:

    •   refund $178,601 to the Federal Government;

    •   review its claims subsequent to our audit period to determine whether it had specific
        required documentation on file for Medicare DMEPOS claims that it filed using the KX
        modifier and return any identified overpayments;

    •   follow its established quality assurance processes to ensure that the required documents
        are present prior to billing for new equipment setups;

    •   develop and implement a quality assurance process for monthly rental billing and
        replacement supplies that complies with Federal requirements; and

    •   remove the automatic assignment of the KX modifier from the billing software and apply
        the KX modifier to claims only after all of the required documentation is on file.

MEDICAL SERVICES OF AMERICA COMMENTS

MSA did not concur with the amount recommended for refund to the Federal Government and
provided additional documentation with its comments. MSA concurred with our remaining
recommendations. MSA’s comments are included as Appendix F; however, we did not include
the additional documentation that MSA provided because it was too voluminous and contained
personally identifiable information.




6
 The MedAmerica division researches and corrects contractual reimbursement issues related to billings, claim
payments, provider numbers, and special price files.

                                                        6
OFFICE OF INSPECTOR GENERAL RESPONSE

We reviewed the additional documentation that MSA provided with its comments. We
determined that the additional documentation adequately supported 3 of the 65 claims that we
previously determined to be unallowable. We updated the numbers accordingly throughout the
report. The documentation that MSA provided for the remaining 62 claims did not adequately
support the claim. MSA had previously provided us with most of the additional documentation,
and both the Medicare administrative contractor and we had already reviewed it and determined
the claims to be unallowable.




                                              7
APPENDIXES
                    APPENDIX A: DOCUMENTATION REQUIREMENTS

   Documentation Requirements for Selected Durable Medical Equipment, Prosthetics,
                 Orthotics, and Supplies Requiring the KX Modifier

 Documentation
Required to be on                                Therapeutic
 File at Supplier           Required by             Shoes      PAP    RAD      PRSS
                                       Physician’s Order
                      Program Integrity
Physician’s Order,
                      Manual (PIM), Pub. No.
(written, signed
                      100-08, ch. 5                   X        X       X         X
and dated)
                      LCDs                            X        X       X         X
Physician’s
Written Order,
Prior to Delivery     PIM, ch. 5                                                 X
                                   Compliant Use Followup
Face-to-Face
Compliant Use         LCDs                                     X
Statement of
Physician and/or
Beneficiary
Compliant Use         LCDs                                             X
PAP Download of
Use Reviewed by
Physician             LCDs                                     X
                                   Face to Face Evaluation
Face-to-Face Prior
to Sleep Test         LCDs                                     X
                                          Sleep Test
                      NCD                                      X
Sleep Test Before
Physician’s Order
                      LCDs                                     X
                                      Proof of Delivery
                      42 CFR § 424.57(c)(12)         X         X       X         X
Proof of Delivery     PIM, ch. 4                     X         X       X         X
              APPENDIX B: COMPLIANT USE FOLLOWUP DOCUMENTATION 

                                REQUIREMENTS 


The LCD for the CPAP, effective January 1, 2008, states that continued coverage of an E0601
device beyond the first 3 months of therapy requires that, no sooner than the 61st day after
initiating therapy, the supplier ascertain from either the beneficiary or the treating physician that
the beneficiary is continuing to use the CP AP device. The supplier must maintain
documentation that this requirement has been met.

For initial dates of service prior to November 1, 2008, the LCDs for PAP devices (CPAP and
RAD), effective March 13,2008, stated that continued coverage of a PAP device (E0470 or
E0601) beyond the first 3 months of therapy requires that, no sooner than the 31st day but no
later than the 91st day after initiating therapy, the treating physician conduct a clinical re­
evaluation and document that the beneficiary is benefiting from PAP therapy.

For initial dates of service on or after November 1, 2008, the LCDs for PAP devices, effective
January 1, 2009, September 1, 2009, January 1, 2010, and April 1, 2010, state that continued
coverage beyond the first 3 months of therapy requires documentation, no sooner than the 31st
day and no later than the 91st day after initiating therapy, of a face-to-face clinical re-evaluation
by the physician with the beneficiary stating that the beneficiary is continuing to compliantly use
the PAP device and is benefiting from its use. Compliant use must be documented over a
consecutive 30-day period within the first 3 months of use and supported by a report printed
from the PAP or a report supporting the read out of data from the PAP for the consecutive 30­
day period. The treating physician must review this objective evidence of compliant use of the
PAP device.

The LCDs for RAD devices, effective March 13, 2008, September 1, 2009, and February 1,
2010, require re-evaluation. The re-evaluation must occur no sooner than the 61st day after
initiating therapy by the treating physician. Medicare will not continue coverage for the fourth
and succeeding months of therapy until this re-evaluation has been completed.

There must be documentation in the patient's medical record about the progress of relevant
symptoms and patient usage of the device up to that time. The following items of documentation
must be obtained by the supplier of the device for continuation of coverage beyond 3 months: 1)
a signed and dated statement completed by the treating physician, no sooner than 61 days after
initiating use of the device, declaring that the patient is compliantly using the device (an average
of 4 hours per 24 hour period) and that the patient is benefiting from its use and 2) a Medicare
beneficiary statement! completed by the patient no sooner than 61 days after initiating use of the
device. The LCDs state that continued coverage of the device will be denied if these
requirements are not met.




1   The requirement for a beneficiary statement was removed as of February 1, 2010.
                                                                                 APPENDIX C: ERROR DETAILS


                                                                                                         Number ofE.-rors
                                                                       DMEPOS 
                                                                    Total   Number of
                                                                                                                                                                                  Total Net
           TYPES OF MISSING DOCUMENTATION                              Required 
              PAP                  RAD                          Number of Duplicative
                                                                         for 
               Supplies*            Supplies*                                                        E'Tors
                                                                                     PAP                 RAD                    PRSS     TS       Errors     Errors
Physician's order missing                                                ALL 
        0         30        I          6            0       0         37
DMEPOS item(s) missing from physican's order                             ALL 
         3         3        0          0            0       0          6
Physician's order not signed/dated                                       ALL 
         0         0        I          0            I       0          2
No written physician's order after verbal order                          ALL 
         I         0        0          0            0       0          1
     Total Physician's Order Errors (Du plicated Count)                               4         33        2          6            1       0         46          1                       45
Compliant use followup missing                                         PAPIRAD 
      16         0        0          0            0       0         16
Compliant use followup incomplete                                      PAP/RAD 
      5          0        0          0            0       0          5
RAD beneficiary/physician statement missing                              RAD 
        0          0        4          0            0       0          4
30-day download not timely                                               PAP 
         3         0        0          0            0       0          3
Compliant use followup not timely                                      PAPIRAD 
       3         0        0          0            0       0          3
30-day download missing                                                  PAP 
         2         0        0          0            0       0          2
RAD beneficiary/physician statement indicates non-compliance             RAD 
         0         0        1          0            0       0          I
Total Compliant Use Followu p Ermrs (Du plicated Count)                               29         0         5         0            0       0         34          5                       29
Face-to-face evaluation prior to sleep test missing                      PAP 
         8         0         0         0            0       0          8          0                        8
Sleep test missinR                                                     PAP/RAD 
       2         0         I         0            0       0          3          0                        3
Proof of delivery missing                                                ALL 
         3         0         0         0            0       0          3          0                        3

Total Errors (Duplicated Count)                                                       46        33         8          6           1       0         94     -::::::::::::::::':::} ~n~;;H~m;;~~m;~ ;:

                                                                        Dollars 
   Items     Items       Item    Dollars in      1       2         3              4               Multiple
                     CATEGORIES OF DME
                                                                        Tested 
    Tested   Allowed     Errors     Erro,·      Error   Errors    Errors        E.-rors             Ermrs~
Positive Airway Pressure Systems                                        $8,455.04     83        31          52     $4,588.12     30       18        3              1                    22
Respiratory Assist Devices                                               2,556.44     14         5           9       1,487.71     5        3         1             0                     4
Therapeutic Shoes for Diabetics                                            475.14      2         2           0           0.00     0        0        0              0                     0
Pressure Reducing Support Surfaces (groups 1 and 2)                         16.42      1         0           1          16.42     1        0        0              0                     0
Totals                                                                 $1l,503.04    100        38          62     $6,092.25     36       21        4              1                    26

                                                Rounded                $11,503                                     $6,092

* A total of 39 (33 + 6) claims included errors related to supplies.
~   Twenty-six of the 62 unallowable claims had multiple errors.

CPAP = continuous positive airway pressure systems
DMEPOS = durable medical equipment, prosthetics, orthotics, and supplies
PAP = positive airway pressure
PRSS = pressure reducing support surfaces (groups 1 and 2)
RAD = respiratory assist devices
TS = therapeutic shoes for diabetics
                      APPENDIX D: SAMPLING METHODOLOGY

POPULATION

The population consisted of Medicare Part B claims for specific categories of durable medical
equipment, prosthetics, orthotics, and supplies (DMEPOS) - therapeutic shoes for persons with
diabetes, positive airway pressure devices, respiratory assist devices, and pressure reducing
support surfaces (groups 1 and 2) - that DMEPOS suppliers submitted with dates of service
between July 1, 2009, and June 30, 2010, using the KX modifier under Medicare Part B.

SAMPLE FRAME

The sampling frame consisted of 3,689 DMEPOS claims totaling approximately $452,950 for
dates of service between July 1, 2009, and June 30, 2010.

SAMPLE UNIT

The sample unit was a claim.

SAMPLE DESIGN

We used a simple random sample.

SAMPLE SIZE

We selected 100 claims.

SOURCE OF RANDOM NUMBERS

We generated the random numbers with the Office of the Inspector General, Office of Audit
Services (OIG/OAS) statistical software.

METHOD OF SELECTING SAMPLE CLAIMS

We consecutively numbered the sampling frame. After generating 100 random numbers, we
selected the corresponding frame claims.

ESTIMATION METHODOLOGY

We used OIG/OAS statistical software to estimate the amount of unallowable DMEPOS
payments.
         APPENDIX E: SAMPLE RESULTS AND ESTIMATES

                           SAMPLE RESULTS

                                                     Number of        Value of
Frame   Value of      Sample          Value of       Unallowable     Unallowable
 Size    Frame         Size           Sample          Payments        Payments
3,689   $452,950        100           $11,503            62            $6,092



        ESTIMATED VALUE OF UNALLOWABLE PAYMENTS
          (Limits Calculated for a 90-Percent Confidence Interval)

                     Point estimate       $224,743
                     Lower limit          $178,601
                     Upper limit          $270,885
   APPENDIX F: MEDICAL SERVICES OF AMERICA COMMENTS 



COlP,orate
Headquarters
* * * * * * * * * * *LEGAl *~

                       * DEPARTMENT
           17 TA Monroe Lane • P.O. Box 1928 • lexington, South Ca rolina 29071
                    (803) 957-0500/ (BOO) 845-5850 I FAX (888 342-6190
                                                                               Timothy w. Stewart
                                                                               Attorney at Law
                                                                               tw!o1:~wart@msa-corp_com
                                                                               Licensed In S.c.

   September 21, 2012


   Lori S. Pilcher
   Regional Inspector General
   Office of Audit Services, Region IV
   61 Forsyth Street, ~W, Suite 3T4l
   Atlanta, GA 30303

   RE: A-04-11-04010


   Dear Ms. Pilcher:

   On behalf of my client, Medkal Services of America, Inc., ("MSAH) I am writing in
   reply to your draft report dated August 28, 2012, written to John Keirn, Vice President &
   Chief Financial Officer entitled MEDICAL SERVICES OF AME~CA DID NOT
   ALWAYS HAVE REQUIRED DOCUMENTATION ON FILE TO SUPPORT ITS
   MEDICARE CLAIMS. Enclosed herein are MSA's written comments in reference to said
   draft report concerning the sampled 100 "patient olaims" (patient claims shall mean all
   claims associated with a particular patient) that were billed with the 'Kx modifier which
   states MSA has specific documentation on file for Medicare DMEPOS items.

   The draft report stated MSA only had the required documentation for 35 of the 100
   sample patient claims and did not have the required documentation for 65 claims. On
   February 9, 2012, the OIG provided MSA with a spreadsheet containing the 65 patient
   claims and an error key tbat explained what documentation was missing for each claim.
   MSA was asked to provide the additional missing documentation, if possible. Please
   note, a significant portion of the missing documentation was located and presented by
   MSA to the 010 during the February 9, 2012, meeting. However, it does not appear that
   said documentation was incorporated into the draft final report. I have enclosed copies of
   said documentation, as well as, additional documentation located after the February 9,
   2012, meeting in this response.

   The spreadsheet that was provided to MSA by the OIG in February 2012 is enclosed and
   has been color coded in order to properly address the incorporation of the additional




           MEDICAL SERVICES OF AMERICA, INC.
                       www . Medi caISe rvi c eso fAmer ica.com
                                                                                   Page 2 of 4
Lori S. Pilcher
RE: A-04-11-04010
Page 2


documentation. As you will see, the spreadsheet is now color coded according to the
below key:

                       ,	                                                                    I
                  ,"        '   .   I   !   j   I • •   i.' I   I   . . ' I ~ 1I


 Yellow- Some Additional Documentation Was Located But File Still Not Complete
 Oran e- Documentation Re uested Not Re uired At Initial Setu Date

With the addition of the aforementioned documentation, MSA has detennined the
following:

    • 	 An additional thirty-two (32) claims ((or sixty-seven (67) in all)) now have all
        required documentation as prescribed by the KX modifier which are color coded
        Green.

    • 	 MSA has identified six (6) claims that are color coded Orange that did not need
        the required documentation requested per Medicare guidelines at the time of
        initial setup. For clarity, a brief explanation as to why the documentation is not
        required is included beside each of the six (6) instances.

    • 	 Eleven (11) are color coded Yellow to indicate that some additional information
        was found and is enclosed but other information is still missing, but being
        searched for.

    • 	 The remaining sixteen (16) claims are color coded Pink which indicates no
        additional infonnation could be located at this time.

Each additional document referenced is included below and organized by patient by an
alleged error code. To date, MSA is still searching for the missing documents in its hard
copy files.

You have requested that MSA include a statement of concurrence or nonoccurrence
regarding each recommendation present. Below I have listed the OIG recommendations
(in bold type) and MSA's comments regarding each recommendation.

OIG RECOMMENDATIONS

   • 	 Refund $189,459 to Federal Government.

           o 	 MSA Does Not Concur - MSA was abJe to locate and provide required
               documentation for thirty-two (32) additional claims, and further, six (6)
               claims should not have been included in the repayment calculation as the
               documentation was not required . In summary, MSA has all documentation
               for sixty-seven (67) claims out of the ninety-four (94) claims properly
                                                                                 Page 3 of 4
Lori S. Pilcher
RE: A-04-11-04010
Page 3


              included in the audit sample or 71.27%. Accordingly, the proposed refund
              amount needs to be recalculated based upon this information.

   • 	 Review claims subsequent to our Audit period to determine whether it had
       specific required documentation on fIle for Medicare DMEPOS claims that it
       filed using tbe KX modifier and return any unidentified overpayments.

          o 	 Concur - MSA will continue auditing its charts to ensure it has the
              required documentation on file for all claims subsequent to this audit
              period requiring the KX modifier.

   • 	 Follow its established quality assurance processes to ensure that the required
       documents are present prior to billing for new equipment setups.

          o 	 Concur - MSA has implemented a Quality Assurance Order Checklist to
              further ensure compliance is met and MSA will obtain the required
              documentation prior to billing.

   • 	 Develop and implement a quality assurance process for monthly rental
       billing and replacement supplies that complies with the Federal
       requirements.

          o 	 Concur - In addition to the Quality Assurance Order Checklist referenced
              above, MSA is re-implementing its Corporate Quality Assurance
              Department which will not only address new equipment setups and routine
              monthly deliveries but also monthly rentals and replacement supplies.

   • 	 Remove the automatic assignment of the KX modifier from the billing
       software and apply the KX modifier to claims only after all of tbe required
       documentation is on file.

          o 	 Concur - MSA has converted to new billing software called Brightree so
              that it has the capabilities and transparency to ensure billing compliance.
              When MSA converted to its new software, it implemented a more robust
              Documentation Quality Assurance process before claims are transmitted to
              the insurance carrier. Before the KX modifier is attached to claims,
              MSA's Corporate Certificate of Medical Necessity ("CMN") department
              ensures that all required documentation is accounted for. Post conversion,
              MSA's Corporate CMN department now logs the information into its
              billing software and thereafter the claim is released to the particular
              insurance carrier with the KX modifier, when appropriate (Le. all
              documentation on file). If MSA does not have all the required
              documentation on file, it will request and receive said documentation,
              from its field locations before releasing the claims to the carrier. MSA's
                                                                                Page 4 of 4
Lori S. Pilcher
RE: A-04-11-04010
Page 4


              Corporate Quality Assurance Department will monitor this process for
              quality assurance.

Once you have had an opportunity to review this information, I am confident that a new,
substantially reduced, refund amount will be calculated based on the enclosed
information. Should you have any additional questions, I wiJl be happy to schedule a time
to meet with you. Thank you for your time and attention concerning this matter.




Timo y        .wart
General Counsel
